1

p

ORIGINAL

21

CD

m

filed
OCT 0 S 2020

3fa tlje

Supreme Court of tfjr ®ntteb £S>tate$
JESUS ADAM LIZARRAGA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for A Writ of Certiorari to the United
States Court ofAppeals for the Eighth Circuit

PETITION FOR A WRIT OF CERTIORARI

Jesus Adam Lizarraga
Pro Se Petitioner
Fed. Reg. No. 14056-029
FCI Loretto
P.O. Box 1000
Cresson, PA 16630

RECEIVED
OCT 1 9 2020

iSESiU&BftSHTy

T/

■y

QUESTION PRESENTED
Whether the Eight Circuit’s denial of a certificate of
appealability, where the district court summarily denied
Mr. Lizarraga’s motion to vacate, based on that court’s
erroneous determination that his claim - that his guilty
plea was the result of gross misadvice, including former
counsel's “promise that [Lizarraga] would not serve a
prison sentence over 18 years,” constituting ineffective
assistance of counsel - was procedurahy defaulted
because he “failed to raise [this claim of ineffective
assistance of counsel] on direct appeal,” is irreconcilable
with this Court’s holding in Massaro v. United States,
538 U.S. 500 (2003), such that this Court should remand to
the United States Court of Appeals for the Eighth Circuit
with instructions to issue a certificate of appealability?

ft

•11"

PARTIES TO THE PROCEEDINGS
There are no parties to the proceeding other than
those listed in the style of the case.
RELATED CASES
United States v. Jesus AdamLizarraga, No. 6:15-cr2027, U.S. District Court for the Northern District of
Iowa. Judgment entered Feb. 23, 2016.
United States v. Jesus Adam Lizarraga, No. 161589, U.S. Court of Appeals for the Eighth Circuit.
Judgment entered Apr. 6, 2017.
Jesus Adam Lizarraga v. United States, No. 6:18-cv2070, U.S. District Court for the Northern District of
Iowa. Judgment entered Dec. 3, 2019.
Jesus Adam Lizarraga v. United States, No. 201184, U.S. Court of Appeals for the Eighth Circuit.
Judgment entered Jun. 16, 2020.

■iii-

TABLE OF CONTENTS
Page
QUESTION PRESENTED

i

PARTIES TO THE PROCEEDINGS

ii

RELATED CASES

ii

TABLE OF CONTENTS

iii

TABLE OF AUTHORITIES

vi

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

2

CONSTITUTIONAL & STATUTORY PROVISIONS
INVOLVED.............................................................

2

STATEMENT OF THE CASE

4

A.

Petitioner's Guilty Plea Was Not Knowing,
Intelligent and Voluntary, Due to
Ineffective Assistance of Counsel.
4

B.

The District Court Summarily Denied the
Motion to Vacate, Finding Petitioner's
Claim to be Procedurally Defaulted, and
Denied a Certificate of Appealability
("COA").................................................... 6

-IV

C.

The Eighth Circuit Denied COA

REASONS FOR GRANTING THE WRIT

8
9

ARGUMENT:
A.

The COA Standard

B.

Reasonable Jurists Could Debate or, for
that Matter, Agree that Relief is
Appropriate on Petitioner’s Sixth
Amendment Claim................................. 11

C.

Reasonable Jurists Could Debate or, for
that Matter, Agree that Petitioner’s Claim
is Not Procedurally Defaulted,
18

D.

This Court Should Summarily Reverse the
Eight Circuit’s Order Denying COA .... 23

CONCLUSION

9

24

-y-

INDEX OF APPENDICES
Appendix - A:
Judgment of the United States Court
of Appeals for the Eighth Circuit denying a certificate of
appealability. Dated: Jun. 16, 2020
A1
Appendix - B:
Order of the United States District
Court for the Northern District of Iowa. Dated: Dec. 3,2019
A2
Appendix - C:
Order of the United States Court of
Appeals for the Eighth Circuit denying panel rehearing
and rehearing en banc on its prior denial of a certificate
of appealability. Dated: Aug. 21, 2020
All

-VI-

TABLE OF AUTHORITIES
CASES
Barefoot v. Estelle,
463 U.S. 880 (1983).
Beckham v. Wainwright,
639 F.2d 262 (5th Cir. 1980)
Hill v. Lockhart,
474 U.S. 52 (1985)

Page(s)
10,11
16
5,11

Leavitt v. Jane L.,
518 U.S. 137 (1996)

23

Lee v. United States,
137 S.Ct. 1958 (2017)

11

Maryland v. Dyson,
527 U.S. 465 (1999)..

23

Massaro v. United States,
538 U.S. 500 (2003)...........

9,11,18, 19, 22, 23

Miller-El v. Cockrell,
537 U.S. 322 (2003)...

9,10,11

Schweiker v. Hansen,
450 U.S. 785 (1981)...

23

-vir
Slack v. McDaniel,
529 U.S. 473 (2000)
Strickland v. Washington,
466 U.S. 668 (1984).............

10
5,17

United States v. Bass,

536 U.S. 862 (2002)

23

United States v. Gordon,
156 F.3d 376 (2d Cir. 1998)

17

United States v. Herrera,
412 F.3d 577 (5th Cir. 2005)

16

United States v. Hughes,
330 F.3d 1068 (8th Cir. 2003)

22

United States v. Lizarraga,
683 Fed. Appx. 529 (8th Cir. 2017)

4, 5, 19, 20

STATUTES
18 U.S.C. § 841

4

18 U.S.C. § 846

4

18 U.S.C. § 1956

4,15

28 U.S.C. § 1254

2

-V1U-

28 U.S.C. § 2106

23

28 U.S.C. § 2255

passim

28 U.S.C. § 2253(c)

3, 9,11

USSG SECTIONS
§ 2D1.1

12

§ 2S1.1

13

§ 3E1.1

14

-1OPINIONS BELOW
The Judgment of the United States Court of Appeals
for the Eighth Circuit denying Petitioner’s motion for
certificate of appealability is unpublished and may be
found at USCA Case No. 20-1184; Jesus Adam Lizarraga
v. United States ofAmerica (Jun. 16,2020) {Appendix Al).
The Order of the United States District Court for the
Northern District of Iowa denying Petitioner’s motion to
vacate and denying him a certificate of appealability is
unpublished and maybe found at USDC Case No. 6:18-cv2070; Jesus Adam Lizarraga v. United States of
America (Dec. 3,2019) {Appendix - A2).
The Order of the United States Court of Appeals for
the Eighth Circuit denying panel rehearing and rehearing
en banc on its prior denial of a certificate of appealability
is unpublished and may be found at USCA Case No. 201184; Jesus Adam Lizarraga v. United States of
America (Aug. 21, 2020) {Appendix - All).

-2-

STATEMENT OF JURISDICTION
The order denyingthe motion for reconsideration was
issued on August 21, 2020. The judgment denying
Petitioner's motion for certificate of appealability was
issued on June 16, 2020. This petition is timely filed
pursuant to Sup. Ct. R. 13 and this Court's Order dated
March 19,2020, extending the deadline to file any petition
for a writ of certiorari due on or after the date of the order
to 150 days from the date of the lower court judgment, in
light of the ongoing public health concerns relating to
COVID-19. This Court's jurisdiction rests on 28 U.S.C.
§1254(1).

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves a federal criminal defendant’s
constitutional rights under the Fifth and Sixth
Amendments. The Fifth Amendment provides in pertinent
part:
No person shall be . . . deprived of life, liberty, or
property, without due process of law.
The Sixth Amendment provides in pertinent part:
In all criminal prosecutions, the accused shall enjoy
the right to ... have the assistance of counsel for his
defense.

-3-

This case also involves the application of 28 U.S.C. §
2253(c). 28 U.S.C. § 2253(c) provides that:
(1) Unless a circuit justice or judge issues a
certificate of appealability, an appeal may not be
taken to the court of appeals from—
(B) the final order in a proceeding under
section 2255.
(2) A certificate of appealability may issue under
paragraph (1) only if the applicant has made a
substantial showing of the denial of a constitutional
right.

-4STATEMENT OF THE CASE
A. Petitioner’s Guilty Plea Was Not Knowing.
Intelligent and Voluntary. Due to Ineffective
Assistance of Counsel.
On September 15, 2015, the grand jury returned a
four-count Superseding Indictment (DE #15), charging
the Petitioner with conspiracy to distribute a controlled
substance in violation of 21 U.S.C. § 846 (Count I);
distribution of a controlled substance in violation of 21
U.S.C. §§ 841(a)(1) and 841(b)(1)(A) (Counts II and III);
and money laundering in violation of 18 U.S.C. §
1956(a)(3)(B) (Count IV). See DE #15, at 1-3.
After counsel misadvised Petitioner that a formal
plea offer limited his sentence exposure to no more than
18 years' imprisonment, the Petitioner accepted that offer
and entered into a plea agreement with the government.
The district court sentenced the Petitioner to 264 months’
imprisonment on Count I of the Superseding Indictment
and 240 months’ imprisonment on Count IV of the
Superseding Indictment, with the sentences to run
concurrently.
On March 7, 2016, the Petitioner timely filed a notice
of appeal. (DE # 47). On appeal, the Petitioner challenged
his sentence. See United States v. Lizarraga, 683 Fed.
Appx. 529,530 (8th Cir. 2017). The Eighth Circuit Court of
Appeals found that the district court’s three-level
adjustment for the Petitioner’s role in the offense was
appropriate. See id. at 532-33. The Eighth Circuit also

-5adjustment for the Petitioner’s role in the offense was
appropriate. See id. at 532-33. The Eighth Circuit also
determined that the district court properly calculated the
sentencing guidelines range and adequately explained its
sentencing decision. Id. at 533-34. The Eighth Circuit
affirmed the movant’s judgment and sentence. Id. at 534.
In his motion to vacate, pursuant to 28 U.S.C. § 2255,
Petitioner challenged his guilty plea as not knowing,
intelligent and voluntary, based on ineffective assistance
of counsel. Specifically, Petitioner argued that counsel’s
advice that the formal plea offer under consideration and ultimately accepted and executed - limited his
sentence exposure to no more than 18 years'
imprisonment, grossly misstated the terms of the plea
agreement, underrepresented his advisory guideline
range of imprisonment pursuant to the same - based on
the plea agreement and the prosecution's stated views, an
advisory guidelines range of at least 235-293 months'
imprisonment applied -, was objectively inaccurate, fell
below the minimum level of competence and constituted
deficient performance under Hill v. Lockhart, 474 U.S. 52
(1985), and Strickland v. Washington, 466 U.S. 668
(1984). Petitioner further argued that absent counsel's
misadvice, there was a reasonable probability that he
would have persisted in his plea of not guilty and
proceeded to exercise his right to a trial by jury,
demonstrating prejudice under Hill.

-6-

B. The District Court Summarily Denied the Motion
to Vacate. Finding Petitioner’s Claim to he
Procedurally Defaulted, and Denied a Certificate
of Appealability (“COA”h
Petitioner’s §2255 Motion with attached Memorandum
of Law and supporting Declaration raised a single claim
of ineffective assistance of counsel, based on out-of-court
misadvice provided by counsel concerning the sentencing
consequences of a formal plea offer under consideration
and ultimately entered, as described under penalty of
perjury in Petitioner's declaration. Petitioner explained
that counsel misadvised him of the sentencing
consequences of the formal plea offer under consideration
and ultimately entered, which rendered his plea not
knowingly, intelligently, and voluntarily entered. In his
declaration submitted under penalty of perjury, Petitioner
described with specificity the misadvice he received from
counsel concerning the sentence he would receive if he
pleaded guilty- "Mr. Schmiege - after having reviewed the
discovery and stating he was fully aware of all the facts
and the prosecution's theory of the case and my role
therein - advised me to accept the government's plea offer
based on its sentencingbenefits. Mr. Schmiege specifically
advised me that if I accepted the formal plea offer I would
receive a sentence of no more than 18 years'
imprisonment, and I could potentiahy end up with a
significantly shorter sentence." Petitioner further
explained that he "pled guilty because Mr. Schmiege
specifically advised me that if I accepted the formal plea
offer I would receive a sentence of no more than 18 years'
imprisonment, and I could potentially end up with a

-7-

significantly shorter sentence. I trusted him to understand
the law and its application to the facts of my case."
Finally, Petitioner averred that had he been accurately
advised of the true applicable guidelines range of
imprisonment he would have exercised his right to trial by
jury. Under the circumstances of this case, and as set
forth in Petitioner's Memorandum in Support of Motion to
Vacate, these specific factual allegations constitute gross
misadvice concerningthe likely sentencing consequences
of the plea, which rendered the plea itself unknowing,
unintelligent, and involuntary.
The district court summarily denied this claim,
without the benefit of hearing argument from the United
States, without allowing expansion of the record to learn
former counsel's position concerning the misadvice he
provided Petitioner, and with no warning to the pro se
prisoner movant that the court viewed his claim as ripe
for summary denial. The court's ruling denying
Petitioner's claim found that his claim was procedurally
defaulted on two theories - the first of which is based on
an error of fact, rising to the level of an abuse of
discretion and the second is based on a legal conclusion
which is irreconcilable with controllingprecedent. Both of
the district court's theories that Petitioner's claim was
"procedurally defaulted," were set forth in its order:
To the extent that the movant is
assertingthat his counsel promised
him that he would not receive a
sentence above 18 years'
imprisonment for pleading guilty,

-8-

the movant's assertion, again, has
no basis in the record [and] the
movant did not raise any issue
regarding counsel's alleged
promise that he would not serve a
prison sentence over 18 years on
direct appeal. Because the movant
failed to raise this issue on direct
appeal, his claim pursuant to 28
U.S.C. § 2255 is procedurally
defaulted.
Accordingly, because the movant's
claim is procedurally defaulted, his
§ 2255 motion shall be dismissed.
App. B, A8-9.
In the same order, the district court denied Petitioner
a certificate of appealability. [App. B, A9-10]. Petitioner
timely filed a notice of appeal.
C. The Eighth Circuit Denied COA.
On June 16,2020, the United States Court of Appeals
for the Eighth Circuit denied COA. [App. A, Al\ On
August 21, 2020, the United States Court of Appeals for
the Eighth Circuit denied rehearing and rehearing en
banc of its earlier judgment denying COA. [App. C, A1T\.
This petition is timely submitted, within 150 days of the
Eighth Circuit’s June 16, 2020 judgment denying COA
[App. A].

-9REASONS FOR GRANTING THE WRIT
This Court should grant the writ of certiorari. At a
minimum, this Court should order summary reversal
because in denying a certificate of appealability, the
Eighth Circuit has so far departed from the accepted and
usual course of judicial proceedings and sanctioned such
a departure by the district court, as to call for an exercise
of this Court’s supervisory power. This is true because the
district court’s procedural ruling, findingthat Petitioner’s
claim of ineffective assistance of counsel was procedural^
defaulted, for failure to raise the same on direct appeal, is
in direct conflict with this Court’s holding in Massaro v.
United States, 538 U.S. 500 (2003) and was thus clearly
debatable amongst jurists of reason under controlling
precedent. Additionally, Petitioner’s claim that his plea
was not knowing, intelligent or voluntary based on
ineffective assistance of counsel provided the required
constitutional dimension for a certificate of appealability.
A. The Certificate of Appealability Standard.
To obtain a certificate of appealability, a habeas
petitioner must make a “substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2). To satisfy
this standard, the petitioner need not demonstrate that he
would prevail on the merits. Rather, he “must ‘[sjhow
reasonable jurists could debate whether (or, for that
matter, agree that) the petition should have been resolved
in a different manner or that the issues presented were
adequate to deserve encouragement to proceed further.’”
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (quoting

-10Slack v. McDaniel, 529 U.S. 473, 484 (2000) (quoting
Barefoot v. Estelle, 463 U.S. 880, 893 n.4 (1983)) (some
internal quotation marks omitted)).
“[A] COA does not require a showing that the appeal
will succeed.” Id. at 337. As this Court has explained: “We
do not require petitioner to prove, before the issuance of
a COA, that some jurists would grant the petition for
habeas corpus. Indeed, a claim can be debatable even
though every jurist of reason might agree, after the COA
has been granted and the case has received full
consideration, that petitioner will not prevail.” Id. at 338.
In Slack, 529 U.S. at 478, this Court held:
when the district court denies a
habeas petition on procedural
grounds without reaching the
prisoner'sunderlyingconstitutional
claim, a COA should issue (and an
appeal of the district court's order
maybe taken) if the prisoner shows,
at least, that jurists of reason would
find it debatable whether the
petition states a valid claim of the
denial of a constitutional right, and
that jurists of reason would find it
debatable whether the district court
was correct in its procedural ruling.
Reasonable jurists could debate the merits of
Petitioner's Sixth Amendment claim that his guilty plea
was not knowing, intelligent and voluntary because it was

-11based on incomplete and incorrect advice of counsel.
Additionally, reasonable jurists would agree that the
district court’s procedural ruling, that Petitioner’s claim
of ineffective assistance of counsel was procedurally
defaulted - for failure to present the same on direct
review - was clearly erroneous, as it conflicts with
controlling precedent, including this Court’s holding in
Massaro v. United States, 538 U.S. 500 (2003). The legal
argument, set forth below, demonstrates that Petitioner
has satisfied the § 2253(c) standard because, at a
minimum, both the constitutional question and the
procedural one are “debatable among jurists of reason.”
Miller-El, 537 U.S. at 336 (quotingBarefoot, 463 U.S. at
893 n.4).
B. Reasonable Jurists Could Debate or. for that
Matter. Agree that Relief is Appropriate on
Petitioner’s Sixth Amendment Claim.
Petitioner’s Sixth Amendment claim meets the
standard for a certificate of appealability. Counsel
provides ineffective assistance when he grossly
misadvises his client about the sentencing consequences
of a formal plea offer under consideration, including the
maximum sentence exposure thereunder, and prejudice
is demonstrated if there is a reasonable probability that
the client would have rejected the plea if he had been
accurately advised. Lee v. United States, 137 S.Ct. 1958,
1964-65 (2017); Hill v. Lockhart, 474 U.S. 52 (1985).
The record shows that Petitioner sufficiently pled
deficient performance. Specifically, Petitioner explained

-12that his former counsel was deficient for providing
Petitioner with a gross misrepresentation of the likely
sentencing consequences of his plea. Counsel promised
Petitioner that he would receive a sentence of no more
than 18 years' imprisonment if he accepted the United
States' plea offer. This was an obvious gross
misrepresentation of the likely sentencing consequences
of the plea, based on the reasonably foreseeable
guidelines calculations triggered thereunder, and based
on circumstances which counsel was aware of, or should
have been.
Specifically, counsel should have been aware that the
plea agreement included stipulations concerning the
application of the United States Sentencing Guidelines
("USSG") to Petitioner's offense(s).
12. The parties stipulate and agree
the United States Sentencing
Guidelines should be applied, at
least, as follows:
A. Base Offense Level - Drug
Trafficking (Chapter 2): For Count
1, pursuant to USSG §2D1.1, the
appropriate base offense level is
38, based upon defendant's
involvement with at least 4.5
kilograms of "ice" or
methamphetamine (actual).

-13B. Role in the Offense (Chapter 3
adjustment): The parties have no
agreement on whether an upward
adjustment for aggravating role
applies. Defendant understands the
United States believes that, as to
Count 1, defendant was an
organizer, leader, manager, or
supervisor in the criminal activity.
The parties are free to present
evidence and argument on this
issue.
C. Base Offense Level - Money
Laundering (Chapter 2): For Count
4, pursuant to USSG §2Sl.l(a)(l),
the base offense level is the offense
level for the underlying offense
from which the laundered funds
were derived, the drug trafficking
offense. As calculated above, the
appropriate offense level for the
drug trafficking offense is 38.
D. Money Laundering (Specific
Offense Characteristic): For Count
4, a two-level upward adjustment is
appropriate pursuant to USSG
§2Sl.l(b)(2)(B).
E. Acceptance of Responsibility
(Chapter 3 adjustment): The

-14United States agrees for purposes
of USSG §3El.l(b) that defendant
timely notified authorities of
defendant's intention to enter a
guilty plea.
Memorandum of Plea Agreement,
DE #30, pp. 7-8.
Those stipulations triggered an advisory guideline
range of 210-262 months' imprisonment for Count 4 and at
least 168-210 months' imprisonment for Count 1. However,
the prosecution's theory of Petitioner's role in the offense
on Count 1, in tandem with the factual admissions in
Petitioner's plea and evidence provided in discovery
indicated that the likely guideline range of imprisonment
for Count 1 would be 235-293 months. Minimally
competent counsel would have drawn the same
conclusions set forth herein, based on the terms of the
plea offer and the evidence revealed during discovery.
From counsel's perspective at the time he advised
Petitioner that the plea exposed him to no more than 18
years' imprisonment, the readily foreseeable
consequences of Petitioner's plea included being
sentenced based on a TOL of 38 on Count 1. This is true
because the plea agreement and discovery materials put
counsel on notice that the following USSG calculations
were likely applicable to the offense in Count 1: a
stipulated BOL of 38, a three-level increase for role in the
offense, and a three-level reduction for acceptance of
responsibility, resulting in a total offense level of 38. At

-15the lowest criminal history category of I, this triggers an
advisory guideline range of imprisonment of 235-293
months' imprisonment. This is roughly 6.5 years longer
that the exposure counsel conveyed to Petitioner.
Assuming, arguendo, that counsel could reasonably
believe that Petitioner would prevail on the role in the
offense enhancement related to the guidelines range for
Count 1, the plea agreement stipulated that Petitioner
would be sentenced based on a TOL of 37 on Count 4. The
plea agreement stipulated that the following USSG
calculations were applicable to the offense in Count 4: a
stipulated BOL of 38, a two-level increase as a result of
conviction under §1956, and a three-level reduction for
acceptance of responsibility, resulting in a total offense
level of 37. At the lowest criminal history category of I,
this triggers an advisory guideline range of imprisonment
of 210-262 months' imprisonment. This is roughly 4 years
longer that the exposure counsel conveyed to Petitioner.
Counsel's gross misrepresentation of the likely sentencing
consequences of the plea fell below the minimum level of
competence, required of an attorney representing a
criminal defendant, and was professionally unreasonable.
It seems plausibly that former counsel’s absence at
the time that Petitioner signed the plea agreement and the
rushed circumstances surrounding any
post-signing/pre-change of plea hearing consultation may
have contributed to counsel's failure to properly interpret
and convey the terms and consequences of the latest
formal plea offer. This is true because according to the
record created by AUSA Chatham at Petitioner's change

-16of plea hearing, counsel "was not able to come and
actually physically meet with his client until this morning.
He had somebody come, get the defendant, sign-off on it
late last week but I will note for purposes of the plea
agreement itself that we have extended the offer until the
date that it was signed." Perhaps, there was a prior offer
that capped Petitioner's sentence exposure in the manner
which counsel described. If so, while that makes counsel’s
failing more understandable it does NOT in any way
detract from Petitioner's clear showing of deficient
performance based on the gross misadvice former defense
counsel provided concerningthe terms and consequences
of the particular formal plea offer then under
consideration.
Where the issue is whether to plead guilty or not, "the
attorney has a duty to advise the defendant of the
available options and possible consequences" resulting
from the decision. Beckhamv. Wainwright, 639F.2d262,
267 (5th Cir. 1980). An attorney must advise his client of
the likely sentencing consequences of any formal plea
under consideration. See United States v. Herrera, 412
F.3d 577, 580 (5th Cir. 2005) ("One of the most important
duties of an attorney representing a criminal defendant is
advising the defendant about whether he should plead
guilty. An attorney fulfills this obligation by informing the
defendant about the relevant circumstances and the likely
consequences of a plea. Apprising a defendant about his
exposure under the sentencing guidelines is necessarily
part of this process."). It is well-settled that failure to do
so constitutes deficient performance within the meaning

-17of the first prong of Strickland's, ineffective assistance of
counsel test.
The record further demonstrates that absent
counsel’s misadvice, there is a reasonable probability that
Petitioner would have persisted in his plea of not guilty
and proceeded to exercise his right to a trial by jury.
Petitioner only pleaded guilty as a result of counsel’s
misadvice, which convinced him that accepting the plea
would limit his sentence exposure to no more than 18
years' imprisonment and possibly result in a much shorter
sentence. Had counsel provided accurate advice, that
based on the readily foreseeable consequences of the plea
and attendant circumstances, Mr. Lizarraga faced an
advisory guidelines range of imprisonment of roughly 6.5
years longer than the maximum that counsel promised,
Mr. Lizarraga would have persisted in his plea of not
guilty and proceeded to exercise his right to trial by jury.
The huge difference between the likely sentence
communicated by counsel and the accurate likely
sentence arrived at by applying the guidelines to the facts
known by, or available to counsel, indicates a reasonable
probability that absent counsel's gross misrepresentation
of the sentencing consequences of the plea, Mr. Lizarraga
would have persisted in his plea of not guilty and
proceeded to trial by jury. See, e.g., United States v.
Gordon, 156 F.3d 376, 381 (2d Cir. 1998) ("The fact that
there is a great disparity between the actual maximum
sentencingexposure under the SentencingGuidelines and
the sentence exposure represented by defendant's
attorney provides sufficient objective evidence to establish

-18a reasonable probability that the outcome of the
proceedings would differ.").
The district court summarily denied this claim,
without the benefit of hearing argument from the United
States, without allowing expansion of the record to learn
former counsel's position concerning the misadvice he
provided Mr. Lizarraga, and with no warning to the pro se
prisoner movant that the court viewed his claim as ripe
for summary denial. The district court’s written order
denying Petitioner’s motion to vacate makes clear that the
basis of the ruling are dual theories under which
Petitioner procedurally defaulted his claim of ineffective
assistance of counsel. Thus, the district court did not
address the claim on its merits and Petitioner’s prima
facie showing of ineffective assistance of counsel is
sufficient to establish the requisite constitutional
dimension for issuance of COA.
C. Reasonable Jurists Could Debate or. for that
Matter. Agree that Petitioner’s Claim is Not
Procedurally Defaulted.
The district court’s summary denial of Petitioner’s
claim, without the benefit of hearing argument from the
United States, without allowing expansion of the record to
learn former counsel's position concerning the misadvice
he provided Petitioner, and with no warning to the pro se
prisoner movant that the court viewed his claim as ripe
for summary denial, is more than debatable, it is simply a
error of law, in irreconcilable conflict with controlling
precedent, including this Court’s holding in Massaro v.

-19United States, 538 U.S. 500 (2003). The district court's
ruling denying Petitioner's claim found that his claim was
procedurally defaulted on two theories - the first of which
is based on an error of fact, rising to the level of an abuse
of discretion and the second is based on a legal conclusion
which is irreconcilable with controlling precedent. The
district court's first theory that Petitioner's claim is
"procedurally defaulted," was set forth in its order:
To the extent that the movant is
asserting that his counsel provided
ineffective assistance by failing to
advise him that he was subject to a
three-level upward adjustment for
his role in the offense, there is no
basis in the record for such an
assertion. The plea agreement
states that the issue would be
litigated at sentencing. The movant
and counsel clearly discussed the
issue, as counsel objected to the
three-level adjustment in the PSR.
Further, the parties argued the
issue at the sentencing hearing.
Moreover, the issue was raised on
direct appeal, and the Eighth
Circuit determined that the court's
three-level adjustment for the
movant's role in the offense was
appropriate. See Lizarraga, 682
Fed. App'x at 532-33. Because the
movant raised this issue on direct

-20-

appeal, his claim pursuant to 28
U.S.C. § 2255 is procedurally
defaulted.
App. B, A8.
The district court's ruling is based on a simple of
error of fact, rising to the level of an abuse of discretion,
i.e., that Petitioner's claim that counsel was
constitutionally ineffective for misadvisinghim concerning
the potential applicability of the 3-level enhancement was
the same as Petitioner's direct appeal challenge to the
applicability of that enhancement. On direct appeal to the
Eighth Circuit, Petitioner challenged his sentence and the
district court's application of the 3-level enhancement for
aggravating-role under § 3B 1.1(b). See United States v.
Lizarraga, 682 Fed. Appx. 529,532 (8th Cir. 2017). In his
§2255 motion, Petitioner raised a Sixth Amendment claim
that his plea was not knowingly, intelligently and
voluntarily entered as a result of ineffective assistance of
counsel. It is one thing to assert that a guideline
enhancement was erroneously applied - this was the crux
of Petitioner's direct appeal claim; it is something
altogether different to assert, in a §2255 proceeding, that
one's counsel was constitutionally deficient for
misadvising his client that such guideline enhancement
would not apply and therefore the guidelines range
triggered by a formal plea under consideration would not
include such enhancement. Those are separate and
distinct legal claims. The Eight Circuit’s prior ruling that
the 3-level enhancement for aggravating-role under §

-213B1.1 applies in no way informs any element of
Petitioner's Sixth Amendment claim.
The district court's second theory that Petitioner’s
claim is "procedurally defaulted," was also set forth in its
order:
To the extent that the movant is
assertingthat his counsel promised
him that he would not receive a
sentence above 18 years'
imprisonment for pleading guilty,
the movant's assertion, again, has
no basis in the record [and] the
movant did not raise any issue
regarding counsel's alleged
promise that he would not serve a
prison sentence over 18 years on
direct appeal. Because the movant
failed to raise this issue on direct
appeal, his claim pursuant to 28
U.S.C. § 2255 is procedurally
defaulted.
Accordingly, because the movant's
claim is procedurally defaulted, his
§ 2255 motion shall be dismissed.
App. B, A8-9.

-22-

This ruling constitutes a clear error as controlling
precedent - both from this Court and the Eight Circuit mandates that claims of ineffective assistance of counsel
may be initially presented in a §2255 motion, and that
claims so presented are not considered procedurally
defaulted. See Massaro v. United States, 538 U.S. 500
(2003) (holding that defendant could raise
ineffective-assistance-of-counsel claim in collateral
proceeding, even though defendant could have, but did not
raise claim on direct appeal); see also United States v.
Hughes, 330 F.3d 1068,1069 (8th Cir. 2003) ("When claims
of ineffective assistance of trial counsel are asserted on
direct appeal, we ordinarily defer them to 28 U.S.C. § 2255
proceedings."). Accordingly, the "failure to raise an
ineffective-assistance-of-counsel claim on direct appeal
does not bar the claim from being brought in a later,
appropriate proceeding under § 2255." Massaro, 538 U.S.
at 509.
The district court's ruling dismissing Petitioner's §
2225 motion based on its analysis that his claim of
ineffective assistance of counsel was procedurally
defaulted for failure to have been presented on direct
review constitutes a clear error or at a minimum
reasonable jurists could debate whether the ruling
constitutes a clear error, entitling Petitioner to a COA on
this issue.
The Eighth Circuit denied Petitioner a COA in a
cursory four sentence judgment. \App. A, Al\. Both the
district court’s erroneous procedural ruling and the
Eighth Circuit’s cursory denial of COA are unsupportable

-23-

on the record and under this Court’s holding in Massaro
v. United States, 538 U.S. 500 (2003) and the progeny
thereof. As reasonable jurists could debate the
appropriateness of the district court’s decision finding
that Petitioner’s claim was procedurally defaulted, as
described, supra, a COA should issue as to this question.
D. This Court Should Summarily Reverse the
Eighth Circuit’s Order Denying COA.
This Court has authority to “reverse any judgment”
brought before it and “remand the cause and direct entry
of such appropriate judgment... or require such further
proceedings to be had as may be just under the
circumstances.” 28 U.S.C. § 2106. Summary reversals are
“usually reserved by this Court for situations in which the
law is well settled and stable, the facts are not in dispute,
and the decision below is clearly in error.” Schweiker v.
Hansen, 450 U.S. 785, 791 (1981) (Marshall, J„
dissenting); see, e.g., United States v. Bass, 536 U.S. 862,
864 (2002) (ordering summary reversal because the
decision below was “contrary to” established law);
Maryland v. Dyson, 527 U.S. 465, 467 (1999) (ordering
summary reversal); Leavitt v. Jane L., 518 U.S. 137,145
(1996) (ordering summary reversal where the decision
under review was “plainly wrong”). The Eighth Circuit's
order denying Petitioner's motion for a certificate of
appealability is clearly wrong. Petitioner clearly satisfied
the standard for a certificate of appealability. This case
warrants summary reversal.

-24CONCLUSION
Based upon the foregoing petition, the Court should
grant a writ of certiorari to the United States Court of
Appeals for the Eighth Circuit, vacate the Eighth Circuit’s
order denying COA and remand the matter to the Eighth
Circuit with instructions to grant COA.
Respectfully submitted,
Jesus Adam Lizarraga
Pro Se Petitioner
Fed. Reg. No. 14056-029
FCI Loretto
P.O. Box 1000
Cresson, PA 16630

joji

, 2020

